                The Voluntary Closing Agreement Program
                     for Tax-Exempt Bonds Has Been
                 Implemented, but Its Impact on Voluntary
                  Compliance Has Not Been Determined

                                 September 2004

                       Reference Number: 2004-10-175




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                         September 22, 2004


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION


      FROM:                   Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

      SUBJECT:                Final Audit Report – The Voluntary Closing Agreement
                              Program for Tax-Exempt Bonds Has Been Implemented,
                              but Its Impact on Voluntary Compliance Has Not Been
                              Determined (Audit # 200410005)


      This report presents the results of our review of the Office of Tax Exempt Bonds’ (TEB)
      Voluntary Closing Agreement Program (VCAP). The overall objectives of this review
      were to determine whether the TEB office and Tax Exempt and Government Entities
      (TE/GE) Division have taken appropriate actions to increase bond issuer participation in
      the VCAP and whether the process established for VCAP cases ensures settlement
      requests are processed timely, consistently, and effectively to meet the goal of
      increasing voluntary compliance. The VCAP was established to supplement the
      Examination Program and provide a means for bond issuers to self-identify Internal
      Revenue Code violations and report them to the Internal Revenue Service (IRS). The
      VCAP also allows a reduced settlement (sanction) amount of less than the amount the
      bond issuer would be assessed if the violation was identified during an examination.
      The revenue impact of tax-exempt bonds to the Federal Government is substantial.
      TEB office management advised that the Department of the Treasury projects
      approximately $30 billion in tax revenue would be gained in Fiscal Year 2004 if the
      tax-exempt bonds were taxable.
      In summary, TEB office management has taken steps to develop and implement the
      VCAP in accordance with “Voluntary Closing Agreement Program for Tax-Exempt
      Bonds” (Internal Revenue Service Notice 2001-60, issued October 1, 2001), and
      participation in the VCAP has increased over the first 2 years. In addition, the TEB
      office is continuing to develop the Program to make the settlement process more
      effective, efficient, and consistent. However, TEB office management does not know
      the overall levels of voluntary compliance for tax-exempt bonds and cannot determine
      the effect VCAP closures will have on voluntary compliance. As a result, it is difficult for
                                                         2

TEB office management to determine the extent of value this Program has had on the
tax-exempt bond industry compliance levels.
We also determined that TEB office management attempts to increase the impact of the
VCAP by performing education and outreach on noncompliance issues and is working
with the IRS Office of Chief Counsel and the Department of the Treasury to make
changes to the VCAP that should improve the timeliness and consistency of case
processing.
We recommended the Director, TEB, TE/GE Division, identify the data needed to
adequately baseline tax-exempt bond noncompliance issues, coordinate with
Modernization and Information Technology Services organization management to
determine how these data could be tracked on current TEB office management
information systems, and establish a process to collect and maintain these data.
Management’s Response: The Commissioner, TE/GE Division, agreed with our
recommendations and determined that all line items on TEB returns should be
transcribed to the Business Master File.1 TEB management, in coordination with
Information Technology Services, determined that the data tracking process for risk
assessments and noncompliance issues identified through examinations and the VCAP
will be integrated into the TE/GE Reporting and Electronic Examination System
(TREES). Also, the TEB office’s process of collecting and maintaining the data will be
integrated into the TREES. Management’s complete response to the draft report is
included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




1
 The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
                            The Voluntary Closing Agreement Program
                        for Tax-Exempt Bonds Has Been Implemented, but
                  Its Impact on Voluntary Compliance Has Not Been Determined




                                               Table of Contents


Background ............................................................................................... Page 1
The Voluntary Closing Agreement Program’s Impact on Voluntary
Compliance Is Currently Limited ............................................................... Page 3
         Recommendations 1 through 3:.......................................................Page 6

Participation Goals Were Met, and Management Is Working to
Improve Timeliness and Increase Consistency of Case Processing ......... Page 7
Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 12
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Management’s Response to the Draft Report .................... Page 16
                       The Voluntary Closing Agreement Program
                   for Tax-Exempt Bonds Has Been Implemented, but
             Its Impact on Voluntary Compliance Has Not Been Determined

                                Tax-exempt bonds include governmental and qualified
Background
                                private activity certificates of debt issued by state and local
                                governments or by organizations acting on their behalf,
                                such as universities and nonprofit organizations. These
                                bonds are considered tax-exempt because the bond issuers
                                are tax-exempt entities and the bonds will be used for
                                tax-exempt purposes, such as courthouses, hospitals, airport
                                expansions, and highways. The bond issuers typically
                                reinvest the bond proceeds, until they are needed to finance
                                the tax-exempt project. If the tax-exempt bond issuers meet
                                certain requirements under the Internal Revenue Code
                                (I.R.C.), the interest income from the bond issuances can be
                                excluded from gross income for tax purposes for both the
                                bond issuer and the bond investors (i.e., bondholders).
                                However, the bond issuers and investors can be held liable
                                for paying sanctions1 if the I.R.C. requirements are not met.
                                The number of outstanding tax-exempt bonds and their
                                total worth is not known. However, Internal Revenue
                                Service (IRS) records show that more than
                                450,000 Information Returns for Tax-Exempt Private
                                Activity Bond Issues (Form 8038)2 were filed with the IRS
                                from 1985 through 2002. During the same period, the value
                                of outstanding bonds grew from $650 billion to nearly
                                $1.8 trillion.
                                The revenue impact of tax-exempt bonds to the Federal
                                Government is substantial. The Office of Tax Exempt
                                Bonds (TEB), Tax Exempt and Government Entities
                                (TE/GE) Division, advised that the Department of the
                                Treasury projects approximately $30 billion in tax revenue
                                would be gained in Fiscal Year (FY) 2004 if the tax-exempt
                                bonds were taxable.
                                The TEB office’s primary methods for ensuring compliance
                                with the I.R.C. are its examination and outreach and

                                1
                                  Sanctions are additional taxes, interest, and penalties assessed against
                                taxpayers who are found to be in violation of the I.R.C.
                                2
                                  Forms 8038 are filed only when bonds are issued. Usually, the bond
                                issuer is not required to file any additional forms in relation to the bond
                                issuance unless there is an obligation to pay arbitrage rebate. The
                                450,000 Forms 8038 also include the number of Information Return for
                                Tax-Exempt Governmental Obligations (Form 8038-G) that were filed.
                                                                                                    Page 1
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined

                   education programs. In an examination, TEB office
                   examiners review the books and records of the bond issuers
                   to determine whether they are complying with the I.R.C. In
                   FY 2003, 53 field operations employees closed 349 bond
                   examinations. This represents approximately 0.8 percent
                   of the estimated universe of bonds issued from 1985
                   through 2002. Sanctions in regard to these examinations
                   were negotiated in the amount of $18.3 million.
                   “Voluntary Closing Agreement Program for Tax-Exempt
                   Bonds” (IRS Notice 2001-60) was issued on
                   October 1, 2001, to establish the Voluntary Closing
                   Agreement Program (VCAP) in the Outreach, Planning, and
                   Review (OPR) function within the TEB office. The VCAP
                   was intended to supplement the Examination Program and
                   make better use of the TEB office’s scarce resources by
                   having bond issuers self-identify violations with their bond
                   issuances and report them to the IRS. To encourage bond
                   issuers to voluntarily report I.R.C. violations, the VCAP
                   allows for a reduced settlement (sanction) amount of less
                   than the amount the bond issuer would be assessed if the
                   violation was identified during an examination.
                   VCAP requests are worked by the OPR function, which is
                   separate from the Examination function. The OPR function
                   reviews the settlement request, verifies the circumstances of
                   the violation, and, based on the severity of the violation,
                   negotiates a sanction amount with the bond issuer and issues
                   a closing agreement. The sanction is applied to the bond
                   issuer due to the IRS policy of not taxing investors for bond
                   issuance violations of the I.R.C.
                   The VCAP had been in existence officially for 2 years
                   at the time of our audit.3 The OPR function has increased
                   the level of participation in the VCAP from 43 closures in
                   FY 2002 to 50 closures in FY 2003. As a result of
                   noncompliance issues resolved through the VCAP, bond


                   3
                    Although the VCAP was officially implemented on October 1, 2001
                   (FY 2002), TEB office management informed us the VCAP had been
                   operating informally for several years prior to this. In FY 2001, TEB
                   office management decided to emphasize the VCAP and increased
                   participation from an average of 2 to 4 closures per year to 15 closures.
                                                                                     Page 2
                       The Voluntary Closing Agreement Program
                   for Tax-Exempt Bonds Has Been Implemented, but
             Its Impact on Voluntary Compliance Has Not Been Determined

                                issuers paid sanctions of $4.6 million in FY 2002 and
                                $9.3 million in FY 2003.
                                This review was performed in the Office of the TEB, TE/GE
                                Division, in Washington, D.C., during the period
                                October 2003 through June 2004, in accordance with
                                Government Auditing Standards. Detailed information on
                                our audit objectives, scope, and methodology is presented in
                                Appendix I. Major contributors to the report are listed in
                                Appendix II.
                                The VCAP has been in existence officially for only 2 years,
The Voluntary Closing
                                and the TEB office is continuing to develop the Program to
Agreement Program’s Impact
                                make the settlement process more effective, efficient, and
on Voluntary Compliance Is
                                consistent. Although participation in the VCAP increased
Currently Limited
                                during the first 2 years of the Program, the 93 total VCAP
                                closures represent only a small portion of total tax-exempt
                                bonds outstanding. In addition, TEB office management
                                does not have a process to determine what impact the VCAP
                                has had on voluntary compliance. As a result, it is difficult
                                for TEB office management to determine the extent of the
                                value of this Program to the tax-exempt bond industry.
                                The TEB office does not adequately track data on the
                                tax-exempt bond population and the results of VCAP
                                closures and has not developed performance indicators to
                                measure what impact the VCAP may have on voluntary
                                compliance. For example, the TEB office does not know
                                the overall levels of voluntary compliance (i.e., baselines)
                                for tax-exempt bonds and cannot determine the effect
                                VCAP closures will have on voluntary compliance.
                                The Government Performance and Results Act of 1993
                                (GPRA)4 requires major functions of operations to specify
                                in annual plans their general goals and objectives, including
                                outcome-related goals; to determine the skills, technology,
                                and human capital necessary to achieve these goals; and to
                                determine the management information necessary to
                                monitor whether they are achieving their goals.



                                4
                                 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                                section of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                               Page 3
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined

                   Without adequate information to measure the population of
                   outstanding bonds and indicators to measure the change in
                   compliance levels, the TEB office faces the following
                   challenges in measuring the VCAP’s impact on program
                   goals:
                   •   Complete data on tax-exempt bonds are not available on
                       the TEB office’s computer systems. For example, the
                       tax-exempt bond universe is not known because data
                       from Forms 8038 were not captured on the Returns
                       Information Computer System (RICS)5 until 1987 or
                       processed on the IRS Business Master File (BMF)6 until
                       FY 2001. Bonds issued prior to FY 2001 were entered
                       on the BMF only if they were examined. In addition,
                       the TEB office started capturing the results of
                       tax-exempt bond examination case information on the
                       Audit Information Management System (AIMS)7 in
                       FY 2003. Prior to then, tax-exempt bond examination
                       information was maintained on the AIMS
                       Non-Master File8 with some special reports on Microsoft
                       Excel® spreadsheets. Furthermore, VCAP cases are not
                       tracked on a computer system but maintained on a
                       Microsoft Access® database. Because VCAP cases and
                       the prior examinations were not added to the IRS
                       computer system, comparisons of prior and current case
                       information to measure the change in voluntary
                       compliance cannot be achieved.
                   •   The TEB office does not have meaningful outcome data
                       from which to establish baselines of compliance levels
                       and taxpayer burden reduction. OPR function
                       management has established a method to measure the
                       increase in customer participation in the VCAP by

                   5
                     RICS is an IRS system that provides user access to return and filer
                   information related to the filing and processing of Employee Plan,
                   Exempt Organization, and Government Entity forms.
                   6
                     The IRS database that consists of Federal tax-related transactions and
                   accounts for businesses. These include employment taxes, income taxes
                   on businesses, and excise taxes.
                   7
                     The AIMS provides an automated inventory and activity control for
                   active examination cases.
                   8
                     The Non-Master File consists of transactions on tax accounts not
                   included on the Master File.
                                                                                   Page 4
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined

                       setting numeric goals for FYs 2003 and 2004. VCAP
                       closures are tracked on internal reports and reviewed
                       each month by the Director, TEB. While these are valid
                       measures to help management determine whether
                       resources are used properly, to gauge the activity or
                       productivity (output) of the VCAP, and to aid in setting
                       short-term goals for the program, they do not measure
                       the impact on voluntary compliance.
                   TEB office management advised us they would like to
                   measure the impact of VCAP closures on compliance but
                   are having difficulty because they do not track the types of
                   data necessary to measure this. Another difficulty in
                   measuring the impact of VCAP closures is that requests for
                   closure under the VCAP are dependent on and directly
                   related to the examination, and outreach and education
                   programs. For example, an increase in examinations in a
                   certain tax-exempt bond market segment will result in an
                   increase in requests for closure under the VCAP.
                   Because the effect of the VCAP on noncompliance cannot
                   be adequately measured, TEB office management looks for
                   general indicators of overall compliance levels through the
                   Examination Program, research projects, and trend analyses
                   of noncompliance in tax-exempt bond market segments.
                   For example, one research project involves working with the
                   Bureau of Public Debt to determine whether bond issuers
                   involved in advance refunding9 are more likely in 2003, than
                   they were in 1993, to participate in the acceptable practice
                   of investing proceeds allocable to an advance refunding
                   escrow in Department of the Treasury or State and Local
                   Government Series (SLGS) securities, as opposed to open
                   market securities. TEB office management believes this
                   will be an indicator of a change in voluntary compliance.
                   Because the information about tax-exempt bond issuer
                   compliance is limited to the relatively few examinations and
                   VCAP cases worked and is not adequately tracked, a


                   9
                     Advance refunding occurs when the bond issuer makes an early refund
                   to the bond investors more than 90 days before the final payment of
                   principal or interest (redemption) on the bond issue.

                                                                                Page 5
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined

                   systematic analysis of noncompliance information is needed
                   for TEB office management to make informed decisions
                   about the use of their Examination function and VCAP
                   resources. Until TEB office management can determine the
                   impact the VCAP has on reducing taxpayer burden and
                   increasing voluntary compliance, beyond the actual case
                   closures each year, the real value of the VCAP cannot be
                   determined.

                   Recommendations

                   The Director, TEB, TE/GE Division, should:
                   1. Identify the data needed to adequately baseline
                      tax-exempt bond noncompliance issues.
                   Management’s Response: The Director, TEB, TE/GE
                   Division identified that, for the purpose of improving its
                   process related to baselining tax-exempt bond
                   noncompliance issues, all line items on TEB returns should
                   be transcribed to the BMF. To meet this need, TEB
                   coordinated with the TE/GE Division’s Customer Account
                   Services staff to submit a request to Information
                   Technology Services that all line items on the TEB returns
                   be transcribed. This request was submitted in July 2004.
                   2. Coordinate with Modernization and Information
                      Technology Services organization management to
                      determine how these data could be tracked on current
                      TEB office management information systems.
                   Management’s Response: The Director, TEB, TE/GE
                   Division determined, in coordination with Information
                   Technology Services, that the data tracking process for risk
                   assessments and noncompliance issues identified through
                   examinations and the VCAP will be integrated into the
                   TE/GE Reporting and Electronic Examination System
                   (TREES).
                   3. Establish a process to collect and maintain these data.

                   Management’s Response: The TEB office’s process of
                   collecting and maintaining the data will be integrated into
                   the TREES.
                                                                          Page 6
                          The Voluntary Closing Agreement Program
                      for Tax-Exempt Bonds Has Been Implemented, but
                Its Impact on Voluntary Compliance Has Not Been Determined

                                   TEB office management has taken steps to develop and
Participation Goals Were Met,
                                   implement the VCAP in accordance with IRS
and Management Is Working to
                                   Notice 2001-60. As implemented, the Program encourages
Improve Timeliness and Increase
                                   bond issuers to comply with the I.R.C. and provides a
Consistency of Case Processing
                                   vehicle for issuers to correct violations. Because of their
                                   publicity efforts, OPR management exceeded their VCAP
                                   participation goal (45 closures) for FY 2003. They have
                                   increased their goal to 50 VCAP closures for FY 2004. In
                                   addition, TEB office management has recommended
                                   changes to the Department of the Treasury regulations that
                                   should improve the efficiency of processing VCAP cases.
                                   We also determined that TEB office management attempts
                                   to increase the impact of the VCAP by performing
                                   education and outreach on noncompliance issues to
                                   encourage other bond issuers to come in under the VCAP
                                   for these same noncompliance issues. Education and
                                   outreach efforts are important because bond issuers have
                                   demonstrated their willingness to come forward to report
                                   violations.
                                   To publicize the VCAP and encourage participation, the
                                   TEB office has included information in IRS publications
                                   and on its Internet web site and made presentations at
                                   conferences, seminars, and other meetings attended by their
                                   customers. To determine whether the TEB Outreach and
                                   Education Program has been successful in making TEB
                                   office customers aware of the VCAP and determining their
                                   level of satisfaction with the process, we submitted
                                   questions to the Government Finance Officers Association
                                   (GFOA) and the National Association of Bond Lawyers
                                   (NABL). We requested information from their members
                                   about their knowledge and experiences related to the VCAP.
                                   They responded as follows:10




                                   10
                                     Responses were forwarded to the Treasury Inspector General for Tax
                                   Administration from the GFOA and the NABL and not from individual
                                   members. In some instances, the organizations summarized responses;
                                   in other instances, the organizations provided individual comments.
                                                                                                Page 7
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined

                   •    TEB office officials make presentations at GFOA and
                        NABL meetings, and members have access to VCAP
                        information through their respective Internet web sites,
                        the TEB office web site, and newsletters.
                   •    Both GFOA and NABL members generally agreed the
                        VCAP case closure process was fair.
                   •    There is a negative impression among some GFOA
                        members that the VCAP is not as welcoming as it could
                        be and that the process is slow and cumbersome. In
                        addition, there is some concern that the IRS is using the
                        VCAP to gather names of issuers who have
                        inadvertently violated the I.R.C. and may refer them to
                        the Examination function for enforcement.
                   Overall, responses to the survey indicated TEB office efforts
                   to publicize the VCAP were successful. When we discussed
                   the survey responses with TEB office management, they
                   agreed that, at times, the VCAP process is time-consuming.
                   TEB office management also advised that the Program is
                   not intended to be a “cure” for all noncompliance issues. In
                   the past, bond issuers have submitted some inappropriate
                   issues for closure under the VCAP, and TEB office
                   management has had to forward them to another program
                   area for consideration. For example, some bonds involving
                   fraudulent activities were submitted for closure under the
                   VCAP and were referred to the Criminal Investigation
                   function for further investigation.
                   We reviewed the 35 FY 2003 VCAP cases closed with
                   closing agreements11 to determine whether they were timely,
                   consistently, and effectively processed. TEB office
                   management has not established time standards for
                   processing VCAP closures, so we could not determine
                   whether there was a timeliness problem. However, we did


                   11
                      The TEB office closed 50 cases via the VCAP in FY 2003; however,
                   only 35 of these cases were closed through the use of closing
                   agreements. The remaining 15 cases were closed as part of the VCAP
                   but not through the use of VCAP closing agreements. For example,
                   fraud issues cannot be closed through VCAP closing agreements, and
                   some issues can be self-corrected without using the VCAP closing
                   agreement.
                                                                                Page 8
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined

                   note the amount of time to close VCAP cases varied
                   tremendously. TEB office examiners required 21 to
                   801 days to close the 35 VCAP cases; 24 of the 35 cases
                   required more than 90 days. On average, the 35 cases were
                   closed within 163 days. TEB office examiners attempt to
                   close simple cases that require no additional information
                   within 90 days and all cases within 1 year. An example of a
                   simple case is a request in which the bond issuer made an
                   inadvertent error, the request package is complete, and no
                   additional information is needed. Other requests can be
                   extremely difficult and require technical opinions from the
                   IRS Office of Chief Counsel. These cases can take up to a
                   year or more to close. We did not determine which of the
                   35 cases should have been closed in 90 days and which
                   required technical opinions.
                   IRS management recognized early on that the VCAP needed
                   more detailed procedures.12 TEB office management has
                   tried to increase the consistency and efficiency of closing
                   VCAP cases through the development of standardized
                   closing agreements. The use of standardized closing
                   agreements and specified sanction amounts for similar
                   violations could improve the efficiency and effectiveness of
                   case closing by providing guidelines for working common
                   types of I.R.C. violations and for negotiating sanctions.
                   This should provide for greater consistency in working
                   cases and determining sanctions and should reduce the time
                   to close cases.
                   The Director, TEB, made an attempt to gain approval for
                   standardized closing agreements. A request was submitted
                   on May 29, 2003, to the IRS Chief Counsel to issue a
                   revenue procedure that would implement a comprehensive
                   voluntary resolution system. However, this request was not
                   acted on. According to TEB office management, the IRS
                   Chief Counsel has recently begun to consider
                   implementation of such a system for the TEB office.

                   12
                     IRS Notice 2001-60 anticipated that more detailed procedures about
                   the VCAP would be provided, as the Program was refined. One
                   example included in the Notice was the need to develop standardized
                   closing agreements and specified sanction amounts for particular
                   violations.
                                                                                 Page 9
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined

                   Of the 35 VCAP closures with settlement agreements in
                   FY 2003, 33 cases (94 percent) contained the following
                   5 common issues:
                   •      Change In Use – Eleven (31 percent) of 35 cases
                          involved an unapproved change in the use of proceeds of
                          state or local bonds after the date of issue. The sanction
                          amounts ranged from $0 to almost $1.5 million for
                          the 11 cases.
                   •      Arbitrage/Excess Yield – Eight (23 percent) of
                          35 cases involved investments that earned a yield
                          materially higher than the yield on the bonds of the
                          issue. The sanction amounts ranged from approximately
                          $7,000 to $2.2 million for the 8 cases.
                   •      Guaranty – Five (14 percent) of 35 cases involved
                          bonds that were inappropriately guaranteed directly or
                          indirectly by the Federal Government with respect to the
                          payment of principle or interest. The sanction amounts
                          ranged from approximately $2,000 to $21,000 for the
                          5 cases.
                   •      Announcement 2002-43 Hospital Refinancing
                          Closing Agreement Program – Five (14 percent) of
                          35 cases involved bonds in connection with hospital
                          affiliation transactions in which 2 or more existing
                          I.R.C. Section 501(c)(3)13 organizations agreed to
                          inappropriately merge their operations. The sanction
                          amounts ranged from $0 to approximately $500,000 for
                          the 5 cases.
                   •      SLGS Arbitrage – Four (11 percent) of 35 cases
                          involved the impermissible use of bond proceeds by
                          issuers to acquire a higher yielding investment or to
                          replace funds used to acquire higher yielding
                          investments. The sanction amounts ranged from
                          approximately $4,000 to $143,000 for the 4 cases.
                   The remaining 2 cases (6 percent) involved 2 different
                   issues (Failure to Redeem Bonds and Failure to Pay). The



                   13
                        26 U.S.C. Section 501 (2003).
                                                                            Page 10
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined

                   sanction amounts for all 35 cases ranged from $0 to
                   approximately $2.2 million.
                   The use of standardized closing agreements and specified
                   sanction amounts for the similar violations listed above may
                   have improved the efficiency and effectiveness of case
                   closings for the common issues.
                   TEB office management uses an informal process in both
                   the Examination function and the VCAP to decide what
                   issues need to be addressed through education and outreach
                   efforts. These efforts are designed to inform bond issuers of
                   violations and to provide additional guidance for complying
                   with the I.R.C. To determine whether the TEB office
                   addressed the seven types of noncompliance issues worked
                   in the VCAP in FY 2003, we reviewed IRS Publications,
                   Private Letter Rulings, Field Service Advice,14 the TEB
                   office Internet web site, and topics addressed during
                   outreach speeches to bond issuer groups such as the GFOA
                   and NABL. We determined the seven types of
                   noncompliance issues were addressed through education
                   and outreach activities. In a prior audit,15 we determined
                   TEB office management adequately used the results of
                   examinations to focus their taxpayer education and outreach
                   program in an effort to reduce the number of similar errors
                   in the future.




                   14
                      Private Letter Rulings and Field Service Advice are taxpayer specific
                   rulings furnished by the IRS Chief Counsel in response to requests made
                   by taxpayers and/or IRS officials.
                   15
                      Tax-Exempt Bond Examination Results Are Used to Focus Customer
                   Education Programs (Reference Number 2003-10-172, dated
                   August 2003).




                                                                                 Page 11
                        The Voluntary Closing Agreement Program
                    for Tax-Exempt Bonds Has Been Implemented, but
              Its Impact on Voluntary Compliance Has Not Been Determined

                                                                                     Appendix I


                     Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the Office of Tax Exempt Bonds
(TEB) and Tax Exempt and Government Entities Division have taken appropriate actions to
increase bond issuer participation in the Voluntary Closing Agreement Program (VCAP) and
whether the process established for VCAP cases ensures settlement requests are processed
timely, consistently, and effectively to meet the goal of increasing voluntary compliance. To
accomplish these objectives, we:
I.     Determined whether TEB office management’s education and outreach efforts provide
       complete guidance for bond issuers to submit a VCAP request.
       A.     Interviewed TEB office management and reviewed available documentation to
              identify the education and outreach efforts undertaken to inform customers of the
              VCAP and whether the customers were provided a listing of issues that would be
              considered for resolution under the VCAP.
       B.     Interviewed members of the National Association of Bond Lawyers and the
              Government Finance Officers Association to determine the organizations’
              understanding of and participation in the VCAP.
II.    Determined whether the TEB office’s education and outreach efforts were focused to
       help those bond markets/issuers that would benefit the most from the VCAP.
       A.     Interviewed TEB office management to determine how they focused their
              education and outreach efforts based on the results of prior VCAP cases.
       B.     Obtained a listing of noncompliance issues from prior VCAP cases (from
              subobjective IV. below) to determine how TEB office management focused their
              related education and outreach efforts to provide guidance to the bond
              community.
III.   Determined whether TEB office management has developed a method to measure the
       increase in participation and any change in voluntary compliance related to their efforts
       to increase closures under the VCAP.
       A.     Interviewed TEB office management and reviewed other documentation
              (Strategic Plan, TEB Work Plan, etc.) to identify goals established for the VCAP
              and whether the goals had been met: goals for increasing voluntary compliance
              overall and goals for increasing voluntary compliance attributable to the VCAP.
       B.     Interviewed TEB office management and reviewed other documentation
              (Strategic Plan, TEB Work Plan, etc.) to determine whether methodologies have
                                                                                          Page 12
                           The Voluntary Closing Agreement Program
                       for Tax-Exempt Bonds Has Been Implemented, but
                 Its Impact on Voluntary Compliance Has Not Been Determined

                 been developed to measure changes in voluntary compliance attributable to the
                 VCAP.
IV.     Determined whether requests for closure under the VCAP were processed timely,
        consistently, and effectively.
        A.       Interviewed TEB office management to identify procedures for closing cases
                 timely, consistently, and effectively under the VCAP.
        B.       Reviewed TEB office management’s documented guidance to determine whether
                 procedures have been established to define time standards for case closure,
                 guidance has been provided to ensure consistency of case closure, and
                 standardized closing agreements have been developed.
        C.       Reviewed all closing agreements for VCAP cases closed in Fiscal Year 20031 and
                 determined the length of time it took to close the cases and whether cases with
                 similar issues were settled with similar sanction amounts.
        D.       Interviewed TEB office management to determine the cause of any discrepancies
                 and resolved any questions identified.




1
  The TEB office closed 50 cases via the VCAP in FY 2003; however, only 35 of these cases were closed through
the use of closing agreements. The remaining 15 cases were closed as part of the VCAP but not through the use of
VCAP closing agreements. For example, fraud issues cannot be closed through VCAP closing agreements, and
some issues can be self-corrected without using the VCAP closing agreement.




                                                                                                         Page 13
                        The Voluntary Closing Agreement Program
                    for Tax-Exempt Bonds Has Been Implemented, but
              Its Impact on Voluntary Compliance Has Not Been Determined

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Gerald T. Hawkins, Audit Manager
Barry G. Huff, Acting Audit Manager
Jeffery A. Smith, Lead Auditor
Kenneth C. Forbes, Senior Auditor
Yolanda Brown, Auditor




                                                                                      Page 14
                       The Voluntary Closing Agreement Program
                   for Tax-Exempt Bonds Has Been Implemented, but
             Its Impact on Voluntary Compliance Has Not Been Determined

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Tax Exempt Bonds, Tax Exempt and Government Entities Division SE:T:GE:TEB
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 15
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined


                                                             Appendix IV


         Management’s Response to the Draft Report




                                                                  Page 16
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined




                                                             Page 17
          The Voluntary Closing Agreement Program
      for Tax-Exempt Bonds Has Been Implemented, but
Its Impact on Voluntary Compliance Has Not Been Determined




                                                             Page 18
